WAIVER

Supreme Court of the United States

No. 20-7869
Wilfredo Torres v. The Blackstone Group
(Petitioner) (Respondent)

EDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
d Lam filing this waiver on behalf of all respondents.

cl lonly represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

Lt am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

Tam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar momber. (Filin Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, ape NE, Washington, D.C. 20543).

 

 

 

 

 

 

Signature. Ly AL |
Date: Spt Zi - .
(Type or print) Name DEP N 0 CEA 8 L Ara
aMr. OMs. C Mrs. O Miss
Firm Rust wo Rose
Addzose 2M Keo POWAY, VO feo.
City & State Now GoW 7M tip_f 0067

i
Phone eto 34M- 366 rman dyed ยง4 Q) Gael Zotlar.co
A COPY OF THIS FORM MUST BI SENT 10 PETITIONER'S COUNSEL OR TO PETITIONER TF

PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM, NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER TS REQUIRED.
